No. 19-933
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MONEX DEPOSIT COMPANY, ET AL., PETITIONERS
v.
COMMODITY FUTURES TRADING COMMISSION
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 26th day of May 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 7,168 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 26, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 26, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0933
MONEX DEPOSIT COMPANY, ET AL.
CFTC

ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
ADI.DYNAR@NCLA.LEGAL
NEIL A. GOTEINER
FARELLA BRAUN & MARTEL LLP
235 MONTGOMERY STREET
17TH FLOOR
SAN FRANCISCO, CA 94104
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
DAVID C. MCDONALD
MOUNTAIN STATES LEGAL FOUNDATION
2596 SOUTH LEWIS WAY
LAKEWOOD, CO 80227
303-292-2021
DMCDONALD@MSLEGAL.ORG

RONALD W. OPSAHL
MOUNTAIN STATE LEGAL FOUNDATION
2596 SOUTH LEWIS WAY
LAKEWOOD , CO 80227
303-292-2021
ROPSAHL@MSLEGAL.ORG

